RAMINDER KAUR,

IN THE

Petitioner,

SUPREME COURT

v.

OF THE UNITED STATES

STATE OF MARYLAND,

No. 19-1045

Respondent.

CERTIFICATE OF SERVICE
I, Carrie J. Williams, a member of the Bar of this Court, hereby certify that
on the 12th day of June, 2020, one copy of the foregoing Brief in Opposition to
Petition for Writ of Certiorari was mailed first class postage prepaid to Samuel
Bryant Davidoff, Counsel of Record, and Collette T. Connor, Esquire, Williams &
Connolly, LLP, 725 Twelfth Street, N.W., Washington, D.C. 20005, and by sending
an electronic version of the foregoing Brief in Opposition to sdavidoff@wc.com.

/s/ Carrie J. Williams
CARRIE J. WILLIAMS
Assistant Attorney General
Office of the Attorney General
200 Saint Paul Place
Baltimore, Maryland 21202
(410) 576-7837
Counsel for Respondent

